-   February 2, 2005




Acquisition
Implementation
and Information Assurance Policies
for Acquisition of Navy Systems
(D-2005-033)




               Department of Defense
           Office of the Inspector General
Quality                Integrity       Accountability
Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit, Audit Followup and Technical
Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Audit Followup and
Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                 ODIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General of the Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704

                                                                        February 2,2005

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMATION lNTEGRATION/CHIEF
                 INFORMATION OFFICER
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on Implementation of Interoperability and Information Assurance
         Policies for Acquisition of Navy Systems (Report No. D-2005-033)

        We are providing this report for review and comment. We considered
management comments from the Deputy Assistant Secretary of the Navy for Command,
Control, Communications, Computers, Intelligence and Space on a draft of this report
when preparing the final report. This report is the third in a series of reports that
discusses the implementation of interoperability and information assurance policies for
the acquisition of DoD systems. This report addresses the implementation of those
policies within the Navy.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Assistant Secretary of Defense for Networks and Information IntegratiodChief
Information Officer did not provide comments; therefore, Recommendations A. 1. and
A.2. remain unresolved. We request that the Assistant Secretary of Defense for Networks
and Information IntegratiodChief Information Officer provide comments on this final
report that conform to the requirements of DoD Directive 7650.3 by March 2,2005. No
further comments are required from the Navy.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audam@dodi~.osd.mil.Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-8966) or Mr. Robert L. Shaffer at
(703) 604-9043 (DSN 664-9043). See Appendix C for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:




                                     Assistant Inspector General
                             for Acquisition and Technology Management
          Office of the Inspector General of the Department of Defense
Report No. D-2005-033                                                  February 2, 2005
   (Project No. D2004AL-0011)

   Implementation of the Interoperability and Information Assurance
               Policies for Acquisition of Navy Systems

                                Executive Summary

Who Should Read This Report and Why? Civilian and military managers who are
responsible for interoperability and information assurance requirements of Navy systems
should read this report because it addresses the importance of adhering to DoD
interoperability and information assurance policies to reduce the risk of Navy systems not
being interoperable and being unable to exchange information in a secure manner with
other DoD and allied systems.

Background. This report is the third in a series of reports on the implementation of
interoperability and information assurance policies for the acquisition of DoD systems.
This report addresses the implementation of those policies within the Navy. The first
report addressed the implementation of those policies within the Office of the Secretary
of Defense and the Defense agencies. The second report addressed how effectively the
Army implemented those policies. The fourth report will address how effectively the Air
Force implemented those policies.

Results. The Navy had not implemented DoD policy to populate and maintain the
inventory of Global Information Grid assets. As a result, all applicable Navy sensors,
weapon systems, and business systems will not be included in the DoD enterprise-wide
inventory of Global Information Grid assets, and DoD will not be able obtain the
information superiority necessary for the Services to accomplish their assigned missions
effectively and efficiently. The Assistant Secretary of Defense for Networks and
Information Integration needs to prepare and staff a DoD Directive that specifies the
types of systems and system information capabilities to be included in the inventory of
Global Information Grid assets and the responsibilities of the DoD Components to
populate and maintain it (finding A).

The Navy had not fully implemented interoperability policies to prepare or update
required acquisition documents. Without documents that address interoperability,
capability, and supportability, DoD cannot be assured that its systems will be compatible
with existing systems, will meet the information needs of U.S. forces, or be interoperable
with proposed systems. The Chief of Naval Operations in coordination with the Assistant
Secretary of the Navy (Research, Development and Acquisition) and the Deputy
Assistant Secretary of the Navy Command, Control, Communications, Computers,
Intelligence and Space should require system program managers to obtain Joint Staff J-6
certification for a system’s interoperability requirements, to prepare and use information
support plans for all systems throughout the life of the system, and to prepare system
security authorization agreements for systems that are subject to the DoD Information
Technology Security Certification and Accreditation Process (finding B). See the
Findings section of the report for the detailed recommendations.
Management Comments and Audit Response. The Assistant Secretary of Defense for
Networks and Information Integration/Chief Information Officer did not comment on the
December 17, 2004, draft report. Therefore, we request that the Assistant Secretary of
Defense for Networks and Information Integration/Chief Information Officer provide
comments on this final report by March 2, 2005. The Deputy Assistant Secretary of the
Navy for Command, Control, Communications, Computers, Intelligence and Space
concurred with the findings and recommendations. See the Findings section of the report
for a discussion of the management comments and the Management Comments section of
the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                        i

Background                                               1

Objectives                                               2


Findings
     A. Implementing Global Information Grid Policies    3
     B. Implementing Interoperability Policies           8

Appendixes
     A. Scope and Methodology                           17
         Prior Coverage                                 17
     B. Navy Programs Surveyed                          19
     C. Report Distribution                             20

Management Comments
     Department of the Navy                             23
Background
    This report is the third in a series of reports on DoD implementation of
    interoperability and information assurance policies for the acquisition of DoD
    systems. This report addresses the Navy’s implementation of those policies on
    the inventory for Global Information Grid assets and the provision of the required
    documentation.

    Chairman of the Joint Chiefs of Staff Testimony on the President’s Proposed
    Defense Program for Fiscal Year 2005. On February 4, 2004, General Pace, the
    Vice Chairman of the Joint Chiefs of Staff, testified before the U.S. House of
    Representatives Committee on Armed Services. General Pace described how
    information sharing is critical for planning and executing military operations. He
    testified that:
           Since this is a global war requiring an international effort, we must also
           improve coalition command and control capabilities, and consolidate
           the numerous networks that exist today. These disparate networks
           hinder our ability to plan in a collaborative environment and exercise
           timely and effective command and control with our multinational
           partners.

           We must also review policies and implementing technology that
           safeguard our vital sensitive information while ensuring critical
           operational information is shared with all those who fight beside us.
           JFCOM [Joint Forces Command] has been tasked to take the lead in
           identifying specific multinational information sharing requirements and
           recommending policy changes. Our goal is to establish a multinational
           family of systems with common standards as part of the Global
           Information Grid enterprise services. I view this as a top priority and
           ask for Congressional support- information sharing with our allies is
           critical to winning the War on Terrorism.

    Top Ten Priorities. The Secretary of Defense issued a list of the top ten DoD
    priorities for August 2003 through December 2004. One of those priorities is to
    strengthen joint warfighting capabilities to develop joint concepts to integrate air,
    land, and sea operations, and to strengthen joint exercises and joint training.
    Strengthening joint warfighting capabilities will enhance interoperability and
    communication among warfighters.

    Joint Operations Concepts. In November 2003, the Secretary of Defense issued
    the Joint Operations Concepts, which describes the overarching concept for
    conducting future joint military operations. The Joint Operations Concepts
    provided the operational concept for transforming the Armed Forces to achieve
    joint force capabilities. The Joint Operations Concepts states that the joint force
    will leverage technology to provide actionable, precise, and “fused” intelligence
    at all levels of war to facilitate decision superiority. To facilitate decision
    superiority, the joint force must gain and maintain information superiority.
    Achieving these capabilities will require a singular battlespace networked to
    enable continuous and collaborative campaign planning and an adaptive
    command and control organization. Upon achieving decision superiority, the


                                               1
    joint force can defeat any adversary or control any situation across the full range
    of military operations when the joint force is integrated and networked and
    interoperable with interagency and multinational partners.

    Scope of Navy Programs Surveyed. We judgmentally selected and reviewed
    40 Navy programs from the Office of the Secretary of Defense Test and
    Evaluation Oversight List for 2003. We sent a questionnaire to each program
    office to survey their awareness of interoperability and information assurance
    requirements and to determine whether their system was part of the inventory for
    Global Information Grid assets. Appendix B lists the Navy programs surveyed.
    We also requested program offices to provide the following documents:

           •   operational requirements document;

           •   command, control, communications, computers, and intelligence
               support plan;

           •   test and evaluation master plan; and

           •   system security authorization agreement.

    Overall Audit Project. This project is a continuation of work reported in
    Inspector General of the Department of Defense Report No. D-2003-011,
    “Implementation of Interoperability and Information Assurance Polices for
    Acquisition of DoD Weapon Systems,” October 17, 2002, which addressed
    whether the Office of the Secretary of Defense and DoD agencies were effectively
    implementing DoD interoperability and information assurance policies. Report
    No. D-2004-008, “Implementation of Interoperability and Information Assurance
    Policies for Acquisition of Army Systems,” October 15, 2003, addressed the
    adequacy of interoperability and information assurance requirements for Army
    systems. Concurrent with this audit, another review is assessing how effectively
    the Air Force is implementing DoD interoperability and information assurance
    policies.


Objectives
    The primary audit objective was to evaluate whether the Navy was effectively
    implementing DoD interoperability and information assurance policies.
    Specifically, the audit determined whether the Navy was effectively identifying
    system interoperability and information assurance requirements in the
    requirements generation process. See Appendix A for a discussion of the audit
    scope and methodology and prior coverage related to the audit objectives.




                                          2
           A. Implementing Global Information
              Grid Policies
           The Navy had not implemented DoD policy to populate and maintain the
           inventory for Global Information Grid assets because DoD guidance is not
           clear on the types of systems and system information capability
           requirements that should be included. As a result, all applicable Navy
           sensors, weapon systems, and business systems will not be included in the
           DoD enterprise-wide inventory of Global Information Grid assets, and
           DoD will not be able obtain the information superiority necessary for the
           Services to accomplish their assigned missions effectively and efficiently.


Guidance
    Federal Information Security Management Act of 2002. On December 17,
    2002, the President signed the E-Government Act of 2002 (Public Law 107-347)
    that included Title III, “Federal Information Security Management Act of 2002.”
    Section 305 of the Act, “Technical and Conforming Amendments,” requires DoD
    to develop and maintain an inventory of major information systems, including
    major national security systems, operated under its control. Section 301,
    Subchapter III, section 3542, “Definitions,” states that national security systems
    include information systems used or operated by an agency or contracted by an
    agency, the function, operation, or use of which involves intelligence activities,
    cryptologic activities related to national security, command and control of
    military forces, equipment that is an integral part of a weapon or weapon system,
    or is critical to direct fulfillment of military or intelligence missions.

    Public Law 105-261. Section 2223, title 10, United States Code, chapter 131,
    “Information Technology: Additional Responsibilities of Chief Information
    Officers,” October 17, 1998, requires the DoD Chief Information Officer to
    maintain a consolidated inventory of DoD mission-critical and mission-essential
    information systems, identify interfaces between those systems and other
    information systems, and develop and maintain contingency plans for responding
    to a disruption in the operation of any of those information systems.

    DoD Directive 4630.5. DoD Directive 4630.5, “Interoperability and
    Supportability of Information Technology (IT) and National Security Systems
    (NSS),” May 5, 2004, updates DoD policy and responsibilities for interoperability
    and supportability of system information technology, including national security
    systems. The Directive requires the DoD Chief Information Officer to ensure the
    development, implementation, and maintenance of the Global Information Grid
    architecture in accordance with DoD Directive 8100.1.




                                         3
DoD Directive 8100.1. DoD Directive 8100.1, “Global Information Grid (GIG)
Overarching Policy,” September 19, 2002, establishes policy and assigns
responsibilities for the configuration management and architecture of the Global
Information Grid. The Directive states that it is DoD policy that an
enterprise-wide inventory of Global Information Grid assets shall be established
and maintained. Further, the Directive requires the:

       •   Under Secretary of Defense for Acquisition, Technology, and
           Logistics to ensure that acquisition programs fully consider
           documented Global Information Grid requirements and architecture;

       •   Under Secretary of Defense (Comptroller) to collaborate with the DoD
           Chief Information Officer, where necessary, to identify and coordinate
           improvements to the identification and portrayal of information
           technology resources to improve overall information technology
           visibility;

       •   DoD Components, including the Joint Chiefs of Staff and the Under
           Secretary of Defense for Acquisition, Technology, and Logistics, to
           populate and maintain their portions of the inventory for Global
           Information Grid assets; and

       •   Chairman of the Joint Chiefs of Staff to develop joint doctrine and
           ensure that Chairman of the Joint Chiefs of Staff Instructions are
           compatible with Global Information Grid policy and guidance.

DoD Directive 8100.1 further states that the Global Information Grid includes any
system, equipment, software, or service that meets one or more of the following
criteria:

       •   transmits information to, receives information from, routes
           information among, or interchanges information among other
           equipment, software, and services;
       •   provides retention, organization, visualization, information assurance,
           or disposition of data, information, and/or knowledge received from or
           transmitted to other equipment, software, or services; or

       •   processes data or information for use by other equipment, software, or
           services.




                                    4
Inventory for Navy Global Information Grid Assets
    The Navy had not implemented DoD policy to populate and maintain the
    inventory for Global Information Grid assets.

    Program Office Awareness of the Global Information Grid Policy. We
    surveyed Navy program offices responsible for 40 systems and asked the program
    officials whether they considered their systems to be part of the inventory for
    Global Information Grid assets. Navy program office responses for 40 systems
    were that:

           •   19 of the systems were part of the inventory,
           •   18 of the systems were not part of the inventory, and
           •   3 Navy program offices were not sure whether their systems were part
               of the inventory.

    Systems, Equipment, Software, and Services not Designated as Global
    Information Grid Assets. In response to our survey, Navy program offices
    provided the following reasons why 11 of the18 systems were not reported as part
    of the inventory for Global Information Grid assets.

           •   1 system predated the Global Information Grid overarching policy,
           •   9 systems communicated only with the host platform or were part of
               another system, and
           •   1 system was a weapon system.

    Navy program offices did not explain why seven other systems--the F/A-18E/F
    Super Hornet Naval Strike Fighter, CVN-68 Nimitz Class Nuclear-Powered
    Aircraft Carrier, LPD-17 San Antonio Class Amphibious Transport Dock Ship,
    T-AKE Auxiliary Cargo and Ammunition Ship, Tactical Control System,
    KC-130J Hercules Tactical Aerial Refueler, and Integrated Electronic Defensive
    Countermeasures--were not considered part of the inventory for Global
    Information Grid assets. For example, the operational requirements document for
    the F/A-18E/F includes interoperability as a performance parameter and program
    officials stated that it will be certified for interoperability by the Joint
    Interoperability Test Command; however, the program office did not consider the
    F/A-18E/F to be a Global Information Grid asset.

    Navy program offices were not sure whether three additional systems--the E-2C
    Reproduction Hawkeye Airborne Early Warning Aircraft, the EX 171 Extended
    Range Guided Munition, and the T-45TS Training Aircraft--should be part of the
    inventory for Global Information Grid assets. For example, program officials for
    the EX 171 Extended Range Guided Munition program office stated that they
    thought their program should be part of the inventory for Global Information Grid
    assets but did not know what action to take.




                                        5
     The E-2C Reproduction Hawkeye Airborne Early Warning Aircraft and the
     RIM-162 Evolved Sea Sparrow Missile are national security systems and should
     be Global Information Grid assets. The program office considered the
     AN/BQQ-10 Acoustic Rapid Commercial-Off-The-Shelf Insertion, which is a
     system included on a submarine, to be a Global Information Grid asset based on
     the criteria in DoD Directive 8100.1. However, program officials did not
     consider the AN/ALR-67(V)3 Advanced Special Receiver and the AN/SPY-
     1D(V) Radar as Global Information Grid assets because they are part of another
     system. Because a system communicates only with its host platform or is part of
     another system may not be sufficient justification to exclude the system from the
     inventory for Global Information Grid assets.

     Need to Clearly Define Global Information Grid Asset Inventory Guidance.
     The Navy had not implemented DoD policy on the Global Information Grid
     because DoD guidance is not clear on the types of systems and system
     information that should be included in the inventory. The criteria in DoD
     Directive 8100.1, outlining which system, equipment, software, or service should
     be included in the Global Information Grid, is so broad that virtually all Navy
     systems should be included. Navy systems may meet one of the criteria for
     inclusion in the Global Information Grid asset inventory, but they do not
     necessarily contribute to a network-based way of fighting to achieve information
     superiority, enable joint mission planning, and execute more timely military
     operations and battlefield assessments. In addition, each Navy program office
     may interpret the criteria differently in choosing which systems to include in the
     inventory for Global Information Grid assets.


Effect on Populating and Maintaining the Global Information
  Grid Asset Inventory
     Without a clearly defined policy on the types of systems and system information
     capability requirements that should be included in the inventory for Global
     Information Grid assets and how the inventory will be maintained, Navy program
     offices may be incorrectly designating systems as Global Information Grid or
     non-Global Information Grid assets. Therefore, DoD will not realize its goal of
     including most sensors, weapon systems, and business systems into the Global
     Information Grid to obtain information superiority for the Services to accomplish
     their assigned missions.


Conclusion
     Specific guidance needs to be issued on the types of systems and information
     capability requirements that are necessary for a globally interconnected, end-to-
     end, interoperable, and secure system-of-systems to meet the DoD joint
     warfighting needs. With the necessary guidance, DoD will be able to concentrate
     its resources on those systems that will meet its vision of collecting, processing,
     storing, disseminating, and managing information on demand to warfighters,
     policy makers, and support personnel.


                                          6
Recommendation and Management Comments
    A. We recommend that the Assistant Secretary of Defense for Networks and
    Information Integration/Chief Information Officer prepare and staff a DoD
    Directive that specifies the:

            1. Types of systems and system information capability requirements
    to be included in the inventory for Global Information Grid assets.

          2. Responsibilities of DoD Components in populating and
    maintaining the inventory for Global Information Grid assets.

    Management Comments Required. The Assistant Secretary of Defense for
    Networks and Information Integration/Chief Information Officer did not provide
    comments on the December 17, 2004, draft report. Therefore, we request the
    Assistant Secretary of Defense for Networks and Information Integration/Chief
    Information Officer provide comments on the final report by March 2, 2005.

    Navy Comments. The Deputy Assistant Secretary of the Navy for Command,
    Control, Communications, Computers, Intelligence and Space concurred that the
    Department of the Navy has not implemented DoD policy to populate and
    maintain the inventory for the Global Information Grid because DoD guidance
    was not clear on the types of systems and system information capability
    requirements that should be included. The Deputy Assistant Secretary stated that
    the Department of the Navy Chief Information Officer has maintained a database
    of mission essential and mission critical information technology systems,
    including those in platforms and weapons systems. In addition, the Deputy
    Assistant Secretary stated that the Chief Information Officer is involved in the
    creation of the DoD Information Technology Program Repository that will
    catalog systems and applications across the DoD and serve as the information
    technology systems registry for DoD.




                                        7
           B. Implementing Interoperability Policies
           The Navy did not fully implement interoperability policies to prepare or
           update required acquisition documents because responsible Navy officials
           did not ensure that system program offices identified interoperability
           requirements and included those requirements in acquisition documents
           throughout the life of the system. Without documents that address
           interoperability, capability, and supportability, DoD cannot provide
           assurance that systems being developed, acquired, and deployed meet the
           information needs of U.S. forces, are interoperable with existing and
           proposed systems, and are supported by the Global Information Grid.


Guidance
    DoD Policy. DoD Directive 4630.5, “Interoperability and Supportability of
    Information Technology (IT) and National Security Systems (NSS),”
    May 5, 2004, establishes the net-ready key performance parameter, which
    replaced the interoperability key performance parameter and incorporated
    net-centric concepts for achieving information technology and national security
    system interoperability and supportability. The Directive requires DoD
    Components to ensure that interoperability and supportability capabilities are
    designed, developed, incorporated, tested, and evaluated for all their information
    technology and national security systems. In addition, the Directive requires DoD
    Components to develop procedures for the acquisition of all information
    technology and national security systems and to document, manage, evaluate, and
    report on interoperability, supportability, and sufficiency throughout a system’s
    life using an information support plan.

    DoD Instruction 4630.8, “Procedures for Interoperability and Supportability of
    Information Technology (IT) and National Security Systems (NSS),” June 30,
    2004, states that DoD Components must develop an information support plan ,
    which was formerly known as the command, control, communication, computers,
    and intelligence support plan, for all acquisition programs to document the
    program’s interoperability, information, and support requirements and that it be
    maintained throughout the acquisition life cycle. The Joint Interoperability Test
    Command evaluates and certifies all acquisition information technology and
    national security systems for interoperability. This report uses the term
    “command, control, communication, computers, and intelligence support plan”
    because programs reviewed during the audit usually provided command, control,
    communication, computers, and intelligence support plans.




                                        8
The Instruction requires the heads of the DoD Components to:

       •   require the Chief Information Officer to ensure that the Component
           complies with DoD Instruction 4630.8;

       •   ensure that information support plans for all acquisition-category and
           nonacquisition-category acquisitions are prepared;

       •   identify and document in an information support plan a net-ready key
           performance parameter for all acquisition-category, nonacquisition-
           category, and fielded information technology and national security
           system acquisitions;

       •   submit the information support plan to the cognizant authority for
           review and validation; and

       •   ensure interoperability, supportability, and information assurance are
           designed, developed, tested, evaluated, and incorporated into all DoD
           Component information technology and national security systems.

DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
2003, states that, during system development and demonstration, the capabilities
development document, which was formerly known as the operational
requirements document, will state the detailed operational performance
parameters. Further, the Instruction states that the capabilities production
document will state the operational requirements resulting from system
development and demonstration and will detail the performance expected of the
production system; however, this report uses the term “operational requirements
document” because programs reviewed during the audit usually provided
operational requirements documents.

DoD Instruction 5200.40, “Defense Information Technology Security
Certification and Accreditation Process (DITSCAP),” December 30, 1997, applies
to all DoD Components and shall be used in the acquisition, operation, and
sustainment of any DoD system that collects, stores, transmits, or processes
unclassified or classified information. The Instruction applies to the life cycle of
any information technology or information system, the development of new
systems, and the upgrade of existing and legacy systems. Further, the Instruction
states that the key to the Defense Information Technology Security Certification
and Accreditation Process is the agreement between the information technology
system program manager, the designated approving authority, the certification
authority, and the user representative to resolve critical schedule, budget, security,
and performance issues. This agreement is documented in the system security
authorization agreement and is used to guide the certification and accreditation
process. The system security authorization agreement establishes a binding
agreement on the level of security required before system development or changes
may begin.




                                      9
Joint Staff Policy. Chairman of the Joint Chiefs of Staff Instruction 6212.01C,
“Interoperability and Supportability of Information Technology and National
Security Systems,” November 20, 2003, establishes policies and procedures for
the process to achieve Joint Staff J-6 interoperability and supportability
certification. The Joint Staff Instruction also provides additional guidance for
developing information support plans and establishes procedures for certification
of requirements in the information support plans. The Joint Staff J-6 must
recertify interoperability when material changes such as hardware, firmware, or
software modifications affect interoperability, and every 3 years when the
certifications expire. Establishing system interoperability and supportability is a
continuous process that must be managed throughout the life cycle of the system.
This Joint Staff Instruction applies to all information technology and national
security systems that DoD acquires, procures, or operates. In addition, the Joint
Staff Instruction states that all information technology and national security
systems will be compliant with the Clinger-Cohen Act, DoD interoperability
regulations and policies, and the guidance for the DoD Information Technology
Standards Registry.

Navy Policy. Secretary of the Navy Instruction 5000.2B, “Implementation of
Mandatory Procedures for Major and Non-Major Defense Acquisition Programs
and Major and Non-Major Information Technology Acquisition Programs,”
December 6, 1996, states that the Chief of Naval Operations and the Commandant
of the Marine Corps are responsible for ensuring that the required documentation
is provided. In addition, the Navy Instruction states that operational requirements
documents must include clearly defined, joint interoperability requirements, or
state that joint interoperability is not required. All operational requirements
documents with a command, control, communications, computers and intelligence
element will be staffed for a review of impact and interoperability. The Navy
Instruction further states that operational requirements documents related to
command, control, communications, computers and intelligence will be
forwarded to the Joint Staff J-6 for interoperability certification.

Chief of Naval Operations Instruction 5239.1B, “Navy Information Assurance
(IA) Program,” November 9, 1999, states that the Chief of Naval Operations is
responsible for directing implementation of the Navy information assurance
program in coordination with the Assistant Secretary of the Navy (Research,
Development and Acquisition) and the Deputy Assistant Secretary of the Navy
for Command, Control, Communications, Computers, Intelligence and Space
(formerly the Deputy Assistant Secretary of the Navy for Command, Control,
Communications, Computers and Intelligence/Electronic Warfare/Space) in
compliance with DoD Instruction 5200.40.

Navy Information Assurance Publication 5239-13, “Information Assurance
Certification and Accreditation,” December 2000, provides guidance for
implementing Chief of Naval Operations Instruction 5239.1B.




                                     10
Acquisition Documents
    The Navy did not fully implement interoperability policies to prepare or update
    required acquisition documents, such as operational requirements documents;
    command, control, communications, computers, and intelligence support plans;
    and system security authorization agreements. In addition, the Navy did not
    obtain Joint Staff J-6 certification of interoperability requirements. We requested
    those acquisition documents from Navy program offices for the 40 systems that
    we selected and reviewed.

    Operational Requirements Documents. The Navy program offices provided
    the operational requirements documents for 26 of the 40 systems that we selected
    and reviewed. We reviewed those documents to determine whether the
    interoperability requirements were key performance parameters that could be
    measured, tested, and evaluated. Thirteen of the 26 operational requirements
    documents contained a net-ready, key performance parameter. Navy program
    offices stated that interoperability was not a key performance parameter in the
    remaining 13 operational requirements documents. Reasons given were that:

           •   2 systems had operational requirements documents that were being
               updated to include interoperability as a key performance parameter,

           •   2 systems communicated only with the host platform,

           •   4 systems are part of other systems, and

           •   5 systems predated the requirement for interoperability certification
               and have not had any subsequent milestone decisions.

            Operational Requirements Documents not Provided. Navy program
    offices did not provide operational requirements documents for 14 of the systems
    that we selected and reviewed. The Navy gave the following reasons for not
    providing an operational requirements document:

           •   6 systems predated the requirement for interoperability certification
               and have not had any subsequent milestone decisions,

           •   3 systems had operational requirements documents that were being
               updated to include interoperability as a key performance parameter,

           •   1 system was not considered an acquisition program,

           •   2 systems did not have an interoperability requirement, and

    The program offices for the remaining two systems stated that their operational
    requirements documents were certified for interoperability by the Joint Staff J-6;
    however, the program offices did not provide those documents for our review.

          Need to Update Requirements Documentation. Although the Nimitz
    Nuclear Powered Aircraft Carrier (CVN) and both the LHD-1 and


                                        11
LHD-8 Amphibious Assault Ship programs did not require DoD 5000 series
documentation at their inception, both classes of ships are still being built. In
addition, the LHD-8 was changed from an Acquisition Category II to an
Acquisition Category 1C program. At that time, the operational requirements
documents should have been prepared to address interoperability as a key
performance parameter.

Joint Staff J-6 Certifications. Navy program offices responded to the survey for
the 40 systems that we selected and reviewed and stated that the operational
requirements documents for 10 systems were certified for interoperability by the
Joint Staff J-6. In addition, Joint Staff J-6 interoperability certification was
planned or in process for 10 other systems, including 4 that did not have an
operational requirements document as part of their program documentation. Of
the 20 systems that were not certified for interoperability by the Joint Staff J-6:

       •   4 systems did not require an operational requirements document at
           program inception;

       •   8 systems were initiated before the interoperability certification
           became a requirement;

       •   6 systems did not have an interoperability requirement, communicated
           only with the host platform, or were part of another system; and

       •   2 program offices were unsure whether the operational requirements
           documents for their systems had been certified for interoperability by
           the Joint Staff J-6.

         Need to Obtain Interoperability Certifications. Examples of Global
Information Grid assets that were initiated before the Joint Staff J-6 was required
to certify interoperability were the SSN-21 Seawolf Submarine, the DDG-51
Guided Missile Destroyer, and the LHD-1 and LHD-8 Amphibious Assault Ships.
Examples of systems that were not Global Information Grid assets, but should
have been, that were initiated before Joint Staff J-6 was required to certify
interoperability were the CVN-68 Aircraft Carrier and the E-2C Early Warning
Command and Control aircraft. The Joint Interoperability Test Command
certified the Seawolf Submarine’s AN/BSY-2 Combat Control System as meeting
some of its interoperability requirements; however, the Command did not certify
the overall system because the operational requirements document lacked
interoperability key performance parameters and information exchange
requirements. In addition, although the LHD-8 Amphibious Assault Ship, which
is currently under construction, does not have an operational requirements
document, the program office stated that the Joint Interoperability Test Command
will certify the system for interoperability. Interoperability certifications should
be obtained to ensure that the systems are interoperable with existing and planned
systems of joint, combined, and coalition forces.




                                     12
Command, Control, Communications, Computers, and Intelligence Support
Plans. Navy program offices provided command, control, communications,
computers, and intelligence support plans for only 17 of the 40 Navy systems that
we selected and reviewed. DoD Instruction 4630.8 states that DoD Components
must develop a command, control, communication, computers, and intelligence
support plan for all acquisition programs to document the program’s
interoperability, information, and support requirements and that the plan be
maintained throughout the acquisition life cycle. We did not determine the
adequacy of the support plans. Navy program offices provided the following
explanations for why they did not provide command, control, communications,
computer and intelligence support plans.

       •   5 systems’ command, control, communications, computers, and
           intelligence support plan were either planned or being prepared.

       •   6 systems were initiated before there was a requirement to prepare a
           command, control, communications, computers, and intelligence
           support plan;

       •   10 systems communicated only with the host platform, were part of
           another system, or interoperability requirements did not apply; and

       •   1 system was a Commercial-Off-The-Shelf program without
           milestones or key performance parameters.

The program office for the remaining system did not give a reason why a
command, control, communications, computers and intelligence support plan was
not provided.

Although program offices stated that support plans were not prepared because the
requirement did not exist at the time the systems were initiated, systems
communicated only with their host platform, or were part of other systems, other
program offices with similar systems prepared the required documentation. A
command, control, communications, computer and intelligence support plan was
being prepared for the E-2C Reproduction Hawkeye Airborne Early Warning
Aircraft, although the requirement was not in effect when the program was
initiated. In addition, support plans were prepared for the Remote Airborne Mine
Clearance System and the RIM-162 Evolved Sea Sparrow Missile, although they
communicate only with the host platform, and the Integrated Defensive Electronic
Countermeasure System, which is part of another system.

System Security Authorization Agreements. During our review of 40 Navy
systems surveyed, we determined that Navy program managers were not always
preparing system security authorization agreements for all systems with
information technology requirements. DoD Instruction 5200.40 states that the
key to the Defense Information Technology Security Certification and
Accreditation Process is the agreement between the information technology
system program manager, the designated approving authority, the certification
authority, and the user representative to resolve critical schedule, budget, security,
and performance issues. This agreement is documented in the system security
authorization agreement and is used to guide the certification and accreditation


                                     13
     process. The system security authorization agreement establishes a binding
     agreement on the level of security required before system development or changes
     may begin. The Instruction applies to the life cycle of any information
     technology or information system, the development of new systems, and the
     upgrade of existing and legacy systems.

             Preparation of System Security Authorization Agreements. Navy
     program offices provided system security authorization agreements for only 11 of
     the 40 systems that we selected and reviewed. We did not determine whether the
     contents of the system security authorization agreements were adequate. Reasons
     given for not providing system security authorization agreements were:

            •   11 systems’ security authorization agreements were planned or being
                prepared;

            •   12 systems communicate only with the host platform, were part of
                another system, or interoperability requirements did not apply;

            •   4 systems were initiated before preparation of a system security
                authorization agreement became a requirement; and

            •   1 system had a program security instruction instead of a system
                security authorization agreement.

     The program office for the remaining system did not give a reason why a system
     security authorization agreement was not provided.

     The Federal Information Security Management Act, Office of Management and
     Budget reporting instructions, and the DoD Information Technical Security
     Certification and Accreditation Process contain requirements for security and
     security plans. In addition, although program offices provided several reasons for
     not preparing system security authorization agreements, other program offices
     with similar system requirements had prepared system security authorization
     agreements. For example, a system security authorization agreement was
     prepared for the SSN-21 Seawolf Class Nuclear-Powered Attack Submarine and
     the Ship Self Defense System, even though the requirement was not in effect
     when the programs were initiated. In addition, a system security authorization
     agreement was being prepared for the AN/BQQ-10 Acoustic Rapid Commercial-
     Off-The-Shelf Insertion, although it is part of another system and communicates
     only with the host platform.


Effect of Not Implementing Interoperability Policies
     A system should not be excluded from meeting interoperability requirements
     because the program was initiated before interoperability certification was
     required. The Chief of Naval Operations and the Assistant Secretary of the Navy
     (Research, Development and Acquisition) are responsible for ensuring that
     interoperability requirements of systems are included in the acquisition
     documents. According to the capstone requirements document for the Global


                                         14
    Information Grid, the success of the Global Information Grid depends on how
    well it helps achieve interoperability to allow force-wide sharing of information;
    however, the capstone requirements document states that some information
    systems that are already fielded may not support the timely flow of accurate and
    relevant information needed to meet future joint warfighting needs. In addition,
    legacy systems are not normally designed to support global end-to end network
    management or adhere to a prescribed set of interoperability standards for the
    DoD and intelligence communities. Interoperability requirements should be
    established for systems that communicate with other systems and certified by the
    Joint Staff J-6 to better support the DoD vision of a joint force that will attain
    information superiority and meet future joint warfighting needs. Without
    management oversight and strict implementation of requirements for acquisition
    documents, the Navy has no assurance that fielded systems are compatible with
    existing command, control, communications, computer and intelligence
    infrastructure of other DoD systems. The systems may not be adequate to meet
    the information needs; interface requirements; and net-centric, interoperability,
    and supportability concerns that will enable forces to operate effectively in joint,
    combined, coalition, and interagency operations.

Recommendations and Management Comments
    The Deputy Assistant Secretary of the Navy for Command, Control,
    Communications, Computers, Intelligence and Space concurred with the findings
    and recommendations. Specific comments on each recommendation follow.
    B.1. We recommend that the Chief of Naval Operations in coordination with
    the Assistant Secretary of the Navy (Research, Development and Acquisition)
    and the Deputy Assistant Secretary of the Navy for Command, Control,
    Communications, Computers, Intelligence and Space require system
    program managers to:

           a. Obtain Joint Staff J-6 certification for systems with
    interoperability requirements that support joint warfighting needs, including
    systems that were initiated before the interoperability certification became a
    requirement, systems that are still being built, systems that have undergone
    major modifications, and systems that are included in the inventory of
    Global Information Grid assets.

    Navy Comments. The Deputy Assistant Secretary stated that the Department of
    the Navy is planning to achieve substantial compliance with “FORCEnet”
    technical standards by September 2010, when major portions of the DoD net-
    centric architecture are expected to be in place for net-centric operations.
            b. Prepare and use information support plans for all systems with
    information technology requirements to document interoperability and
    supportability requirements, or provide written justification stating why an
    information support plan is not required.

    Navy Comments. The Deputy Assistant Secretary concurred that written
    justification should be required for any program that does not prepare an
    Information Support Plan.

                                         15
       c. Prepare system security authorization agreements for systems that
are subject to the DoD Information Technology Security Certification and
Accreditation Process.

Navy Comments. The Deputy Assistant Secretary stated that a better definition
of when or what security is required in accordance with DoD Instruction 5100.40
was needed to provide common compliance across the Navy. The Deputy
Assistant Secretary also stated that the Chief Information Officer, Department of
the Navy and the Deputy Assistant Secretary of the Navy for Command, Control,
Communications, Computers, Intelligence and Space review and assess
information assurance strategies for all major programs prior to milestone
approval or award of contracts acquiring information technology systems.
B.2. We recommend that the Chief of Naval Operations in coordination with
the Assistant Secretary of the Navy (Research, Development and Acquisition)
and the Deputy Assistant Secretary of the Navy for Command, Control,
Communications, Computers, Intelligence and Space establish specific
accountability processes to verify that system program managers accomplish
the actions specified in Recommendation B.1.

Navy Comments. The Deputy Assistant Secretary stated that accountability
practices are being conducted but some refinement, clarification, and discipline in
the Navy processes may be necessary to ensure that program managers execute
their responsibilities for joint staff certification, information support plans and
system security authorization agreements. The Deputy Assistant Secretary further
stated that the Navy will continue efforts like the “FORCEnet” Implementation
Baseline and Policy to support existing processes to ensure program managers
execute their responsibilities for joint staff certification, information support plans
and system security authorization agreements when appropriate and notify
programs when they are not.




                                      16
Appendix A. Scope and Methodology
    We reviewed documentation dated from December 1965 to June 2004. To
    accomplish the audit objective, we reviewed:

           •   the Navy’s efforts to implement interoperability and information
               assurance requirements during the acquisition process,

           •   requirements documentation for interoperability and information
               assurance requirements, and

           •   applicable criteria.

    We also contacted the staff of the Chief Information Officer, Department of the
    Navy.

    In addition, we judgmentally selected and reviewed 40 Navy systems from the
    Office of the Secretary of Defense Test and Evaluation Oversight List. A
    questionnaire was used to obtain program managers’ perspectives on
    interoperability and information assurance requirements. We also requested
    operational requirements documents; command, control, communications,
    computers, and intelligence support plans; and system security authorization
    agreements for each system.

    We performed this audit from November 2003 through December 2004 in
    accordance with generally accepted government auditing standards. We did not
    review the management control program because the audit focused on the
    interoperability and information assurance requirements and review processes;
    therefore, our scope was limited to those specific requirements and processes.

    Government Accountability Office High-Risk Area. The General Accounting
    Office has identified several high-risk areas in DoD. This report provides
    coverage of the DoD weapon system acquisition high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.


Prior Coverage
    During the last 5 years, the Government Accountability Office and the Inspector
    General of the Department of Defense have issued seven reports addressing
    interoperability and information assurance requirements for DoD systems.
    Unrestricted Government Accountability Office and Inspector General of the
    Department of Defense reports can be accessed at http://www.gao.gov and
    http://www.dodig.osd.mil/audit/reports, respectively.




                                        17
Government Accountability Office (GAO)
     GAO Report No. GAO-04-858, “Defense Acquisitions – The Global Information
     Grid and Challenges Facing its Implementation,” July 2004

     GAO Report No. GAO-03-329, “Steps Needed to Ensure Interoperability of
     Systems That Process Intelligence Data,” March 2003

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2004-008, “Implementation of Interoperability and
     Information Assurance Policies for Acquisition of Army Systems,” October 15,
     2003

     IG DoD Report No. D-2003-024, “Information Assurance Challenges – An
     Evaluation of Audit Results Reported From August 23, 2001, through July 31,
     2002,” November 21, 2002

     IG DoD Report No. D-2003-011, “Implementation of Interoperability and
     Information Assurance Policies for Acquisition of DoD Weapon Systems,”
     October 17, 2002

     IG DoD Report No. D-2001-176, “Survey of Acquisition Manager Experience
     using the DoD Joint Technical Architecture in the Acquisition Process,” August
     22, 2001

     IG DoD Report No. D-2001-121, “Use of the DoD Joint Technical Architecture in
     the Acquisition Process,” May 14, 2001




                                        18
Appendix B. Navy Programs Reviewed
 1. E-2C Reproduction Hawkeye               21. EX-171 Extended Range Guided
     Airborne Early Warning Aircraft            Missile
 2. F/A 18 E/F Super Hornet Naval           22. Rapid Airborne Mine Clearance
     Strike Fighter                             System
 3. KC-130J Hercules Tactical Aerial        23. RIM-162 Evolved Sea Sparrow
     Refueler                                   Missile
 4. MH-60R Seahawk Multi-Mission            24. Standard Missile-2
     Helicopter Upgrade                     25. RIM-116A Rolling Airframe
 5. Multi-Mission Maritime Aircraft             Missile
 6. V-22 Osprey Joint Advanced              26. AN/ALR-67(V)3 Advanced
     Vertical Lift Aircraft                     Special Receiver
 7. CVN 68 Nimitz Class Nuclear-            27. BQQ-10 Acoustic Rapid
     Powered Aircraft Carriers                  Commercial-Off-The-Shelf
                                                Insertion
 8. LHD-8 Amphibious Assault Ship
                                            28. AN/SPY-1 B/D Aegis Multi-
 9. LHA (R) Amphibious Assault                  Function Phased-Array Radar
     Ship
                                            29. Joint Mission Planning System
 10. LPD-17 Amphibious Assault Ship
                                            30. Ship Self Defense System
 11. SSN-21 Seawolf Class Nuclear-
     Powered Attack Submarine               31. Tactical Control System
 12. SSN-774 Virginia Class Nuclear-        32. Expeditionary Fighting Vehicle
     Powered Attack Submarine               33. Defense Integrated Military
 13. DDG-51 Guided Missile                      Human Resource System
     Destroyer                              34. Deployable Joint Command and
 14. DD (X) Destroyer                           Control
 15. T-AKE Lewis and Clark Class of         35. Integrated Defensive Electronic
     Auxiliary Dry Cargo Ships                  Countermeasure
 16. AGM-84H/K Standoff Land                36. Joint Standoff Weapon
     Attack Missile – Expanded                  Baseline/BLU-108/Unitar
     Response                               37. Navy Standard Integrated
 17. AARGM/AGM – 88E Advanced                   Personnel System
     Anti-Radiation Guided Missile          38. Navy-Marine Corps Intranet
 18. AIM-9X Air-to-Air Missile
     Upgrade                                39. T-45TS Undergraduate Jet Pilot
                                                Training System
 19. MK 48 Torpedo Mods                     40. LHD-1 Amphibious Assault Ship
 20. Airborne Mine Neutralization
     System




                                       19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
   Director for Command, Control, Communication and Computer Systems
      Directorate (J-6)

Department of the Navy
Assistant Secretary of the Navy (Research, Development and Acquisition)
  Deputy Assistant Secretary of the Navy for Command, Control, Communications,
      Computers, Intelligence and Space
Chief of Naval Operations
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Information System Agency
   Commander, Joint Interoperability Test Command




                                          20
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          21
  .
Department of the Navy Comments




     MEMORANDUM
                                     DEPARTMENT

                                RESEARCH. DEYEt.OPIilEKT
                                                        OF THE NAVY
                                   OFFICE OI'TttEASSISTANT




                                             January 18,2005
                                                                 SECAETARY
                                                              AND AOOUISITIOtl
                                             1000 NAVY PENTAGON
                                         W"'SHINGT~OO2035(J-1000




                         FOR ODD DEPUTY INSPECTOR GENERAL FOR AUDITING

     SUBJECT: Draft ODD IG Report on Implementation of Interoperability and Information
                   Assurance Policies for Acquisition of Navy Systems

              We have reviewed the subject audit report and concur overall with its findings aDd
     recommendations.      We share the Department of Defense (000) concerns about the
     importance ofinteroperability    and Information Assurance (IA) in our programs, but
     recorrunend that the survey responses be recognized as including some programs that
     were initiated as early as 1965. Any response to the findings must be tempered with the
     realities of timing, resources, and assessment ofretum on investment.

             The Department of the Navy (DON) has been making significant progress in its
     understanding, interpretation, and implementation ofinteroperability guidelines through
     its use of our FORCEnet initiative. Much of this is being accomplished through the
     efforts to develop FORCEnet specifications and standards, compliance checklists,
     implementation baselines, interoperability assessments, and acquisition policies, all being
     done in a collaborative ~er      among the Operational, Resourcing and Acquisition
     communities in the DON.

             AdditionaJly, it should be stated that the DON has been quite clear in its policies
     concerning interoperability and IA via issuance of Secretary of the Navy and Chief of
     Naval Operations Instructions and IA publications. OUf FORCEnet implementation
     policy is now in draft and will be delivered in April 2005. Many of our programs,
     particularly those in the early phases of the life,          net-ready Key Performance
     Parameters. The attachment provides 0           ecific commen on the DOD Inspector
     General recommendations.


                                                             3enci
                                                    Duty Assistant Secreta of the Navy
                                                     ommand, Control, Communications,
                                                    Computers, Intelligence and Space

     Attachment:
     As stated

     Copy to:
     NavylG




                                                       23
                   Department of the Navy (DON) Comments on
   Draft DOD IG Report on Implementation of Interoperability and Information
  Assurance Policies for Acquisition of Navy Systems (Project No. D2004AL-OOll)

RECOMMENDATION

A. We recommend that the Assistant Secretary of Defense for Network and
Information Integration/Chief Information Officer prepare and staff a DOD
Directive that specifies the:

     I. Types of systems and system information capability requirements to be
Included in the inventory for Global Information Grid assets.

ASN (RDA) RESPONSE: We concur that the DON has not implemented Department of
Defense (000) policy to populate and maintain the inventory for the Global Infonnation
Grid (GIG) because the DOD guidance is not clear on the types of systems and systems
infonnauon capability requirements that should be included. The DON Chief
lnfonnauon Officer (CIO) is currently engaged in the partial resolution of the GIG asset
inventory issue through the creation of the DOD Infonnanon Technology (IT) Program
Repository, which will catalog systems and applications across the DOD and will also
serve as the IT systems registry for 000.

       2. Respol1slbUittes of DOD Components in populating and maintaioiog the
inventory for Global Information Grid assets.

ASN (RDA) RESPONSE: The DON CID has for a number of years maintained a
database of DON mission essential and mission critical IT systems, including those in
platforms and weapons systems. A program's update of information in this database is
verified prior to approval of each acquisition milestone and/or prior to award of a contract
to acquire an IT system.

RECOMMENDATION

B.t. We recommend that the Chief of Naval Operations in coordination with the
Assistant Secretary ofthe Navy (Research, Development and Acqnisition) and the
Deputy Assistant Secretary of the Navy for Command, Control, Communications,
Computers, and IntelligencelElectronic Warfare/Space require system program
managers to:

        a. Obtain Joint Staff J-6 certification for systems with ioteroperability
requirements that support joint warfighting needs, including systems that were
initiated before the interoperability certification became a requirement, systems




                                           24
tbat are still being built, systems that have undergone major modifications, and
systems that are included in tbe inventory of Global Information Grid assets.

ASN (RDA) RESPONSE: The DON has been quite clear in its policies concerning
interoperability and IA via issuance of Secretary of the Navy and Chief of Naval
Operations Instructions and IA publications. Many of our programs, particularly those in
the early phases of the life cycle, have net-ready Key Perfonnance Parameters (KPPs).
We would advise caution in requiring interoperabilityKPPs for all programs regardless
of the program's mission and its current place in the life cycle phase. Resources should
be allocated to those programs where the return on investment is the greatest. Program
Managers should advise acquisition officials of the cost of achieving compliance along
with associated impact on delivery schedule/quantity or perfonnance risk. In its
implementation of FORCEnet programs, the DON is planning to achieve substantial
compliance with FORCEnet technical standards by September 20 IO. This is the period
during which major portions of the DoD net-centric architecture are expected to be in
place to enable net-centric operations. DON acquisitions will accomplish FORCEnet
compliance through budget requests, ensuring that appropriate FORCEnet standards are
used in program development, and demonstration of FORCEnet cornpliance at milestone
reviews and during developmental and operational testing.

       b. Prepare and use information support plans for all systems. with
information technology requirements to document interoperability and
supportability requirements, or provide written justification stating why an
information support plan is not required.

ASN (RDA) RESPONSE: We concur that written justification should be required for
any program that does not prepare an Infonnation Support Plan. In the DON, test and
evaluation for acquisition programs assesses the system's compliance with applicable
technical standards and its ability to function in the applicable Families of
Systems/Services as dermed in the Information Support Plan (ISP).

       c. Prepare system security authorization agreements for systems tbat are
subject to the DOD Information Tecbnology Security Certification and
Accreditation Process.

ASN (RDA) RESPONSE: Better definition ofwhenlwhat security is required in
accordance with DOD Instruction 51000.40 is needed to provide common compliance
across the DON. The DON CIO and the Deputy Assistant Secretary of the Navy for
Command, Control, Communications, Computers and Intelligence and Space (DASN
(C4I/S) review and assess IA Strategies for all major programs prior to milestone
approval andlor prior to award of contracts acquiring IT systems.




                                             2




                                        25
B.l. We recommend      that the Chief of Naval Operations in coordination with the
Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Deputy Assistant Secretary ofthe Navy for Command, Control, Communications,
Computers, and InteUigence/Electronic Warfare/Space establish specific
accountability processes to verify that system program managers accomplish the
actions specified in Recommendation B.t.

ASN (RDA) RESPONSE: These practices are already being conducted within the DON
community but some refinement, clarification, and discipline in our processes may be in
order. We should continue to ensure that program managers execute their responsibilities
for joint staff certification, Infonnation Support Plans (ISP) and system security
authorization agreements. Funding for bringing systems into compliance with
architectures and standards will need to be supported by 000 in future fiscal year budget
requests and in current program development and product improvement budgets.

        In summary, we will continue to evolve our efforts like the FORCEnet
Implementation Baseline (FIBL) and Policy as a means to further infonnation that can
support existing processes to ensure Program Managers execute their responsibilities for
1-6 certification, ISP, and Systems Security Authorization Agreements (SSAA) when
appropriate and to formally notify programs when these reports events are not being
implemented. Recently, the ASN (RDA) Chief Engineer (CHENG) has engaged in
discussions with Marine Corps Systems Command to better understand practices and
processes they use in development and management ofISP and SSAAs to detennine the
potential applicability to the Navy enterprise.

       Additionally, the Navy Program Executive Office (C4I and Space) in ajoint effort
with U.s. Air Force's Electronic Systems Center developed reference architecture,
implementation guidance and reusable software components, referred to as Net-centric
Enterprise Solutions for Interoperability (NESI). The NESI Implementation Framework
guidance applies to all phases of the acquisition process. The overall goal ofNESI is to
provide conunon, cross-service guidance in basic terms for the Program Managers and
developers of net-centric solutions. NESI was not fonnulated to replace or repeat
existing ODD direction/guidance, but rather to help translate into concrete actions the
wide~ranging mandate contradictory guidance on the topic of net-centric compliance and
standards.

        We believe that NESI, when fully implemented, will help programs comply with
the DOD net-centric directives, instructions, and other guidance documentation. This
imtiative will continue to evolve as direction and our understanding of the requirements
of net-centricity ~volve. We believe that NESt is a useful tool to other DOD Components
in their quest for net-centricity.




                                            3




                                           26
        In closing, we appreciate the efforts of the DOD IG auditors in making their
investigations and assessments on interoperability and infonnation assurance policies for
acquisition of Navy systems. We would welcome the opportu.nity to update the auditors
on our FlBL, Compliance Checklist, Acquisition Policy (be signed out in April 2005),
and NESL Since the subject report reflects a snapshot in time, the auditors were unaware
of efforts that we have now underway and the progress being made by the Navy's
FORCEnet initiative.




                                            4




                                           27
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Yolanda D. Bailey
James A. Hoyt
Patricia A. Joyner
Nephateria N. Moore
Jacqueline N. Pugh
Christopher M. Scrabis
Robert L. Shaffer
Kathryn M. Truex
Zachary M. Williams
